No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
KAVORIS CLAYTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Kavoris Clayton, pursuant to SUP CT. R. 39.1, respectfully moves for leave to
file the accompanying petition for writ of certiorari in the Supreme Court of the United States
without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the Federal Public
Defender of the Southern District of Florida was appointed to represent Petitioner pursuant to 18
U.S.C. ' 3006A. Therefore, in reliance upon RULE 39.1 and ' 3006A(d)(6), Petitioner has not
attached the affidavit which would otherwise be required by 28 U.S.C. ' 1746.
MICHAEL CARUSO
Federal Public Defender

Fort Lauderdale, Florida
May 13, 2021

By:

Timothy Day
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-743

